COCKLE

2311 Douglas Street 1 E-Mail Address:
Omaha, Nebraska 68102-1214 Le Ba 1B pie fs contact@cocklelegalbriefs.com

1-800-225-6964 ‘Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-843

NEW YORK STATE RIFLE &
PISTOL ASSOCIATION, INC., et al.,
Petitioners,

v.
KEVIN P. BRUEN, in His Official Capacity as
Acting Superintendent of New York State Police, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of July, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE THE DC PROJECT FOUNDATION,
OPERATION BLAZING SWORD— PINK PISTOLS, AND JEWS FOR THE PRESERVATION OF FIREARMS
OWNERSHIP IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

CHARLES R. FLORES
Counsel of Record

DANIEL N. NIGHTINGALE
BECK REDDEN LLP
1221 McKinney Street
Suite 4500
Houston, Texas 77010
(713) 951-6236
cflores@beckredden.com
Counsel for Amici Curiae

Subscribed and sworn to before me this 19th day of July, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

Toe Lowa Oudraw-h, hile

Notary Public Affiant

 

My Comm. Exp. September 5, 2023

 

8
 

Attorneys for Petitioners

Paul D. Clement Kirkland & Ellis LLP 202-389-5000
Counsel of Record 1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com

Party name: New York State Rifle & Pistol Association, Inc., et al.

 

Attorneys for Respondents

Barbara Dale Underwood Solicitor General 212-416-8016
Counsel of Record Office of the Attorney General
28 Liberty Street

New York, NY 10005-1400

Barbara.underwood@ag.ny.gov

Party name: Kevin P. Bruen, et al.

 

 
